HHS/OIG-Audit--"Audit of the Ryan White Comprehensive AIDS Resources Emergency Act of 1990 in the Boston Metropolitan Area for Fiscal Year 1994, (A-01-95-01504)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Ryan White Comprehensive AIDS Resources Emergency Act of 1990 in the Boston Metropolitan Area for
Fiscal Year 1994," (A-01-95-01504)
October 16, 1995
Complete
Text of Report is available in PDF format (1.5 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our review made to determine whether the Boston Eligible Metropolitan
Area (EMA) and its service providers ensured that all clients of the Ryan White Comprehensive AIDS Resources Emergency
Act of 1990 (CARE) were individuals who had AIDS or were members of their families. We found that two of the three service
providers reviewed did not have documentation regarding HIV disease for 102 of the 113 cases we reviewed. This occurred
because the Boston EMA had not given guidance to service providers for the implementation of a system to ensure that all
CARE Act clients were individuals with HIV disease or members of their families. Among other things, we are recommending
that the Boston EMA provide such guidance. Both the Health Resources and Services Administration and the Boston EMA acknowledged
our findings and agreed to effectuate corrective action.